1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MONSTER ENERGY COMPANY, FKA
Hansen Beverage Company,
Petitioner-Appellee,
v.
CITY BEVERAGES, LLC, DBA
Olympic Eagle Distributing,
Respondent-Appellant.

Nos.

17-55813
17-56082

D.C. No.
5:17-cv-00295RGK-KK
OPINION

Appeal from the United States District Court
for the Central District of California
R. Gary Klausner, District Judge, Presiding
Argued and Submitted July 12, 2019
Pasadena, California
Filed October 22, 2019
Before: MILAN D. SMITH, JR. and
MICHELLE T. FRIEDLAND, Circuit Judges,
and MICHAEL H. SIMON,* District Judge.
Opinion by Judge Milan D. Smith, Jr.,
Dissent by Judge Friedland
COUNSEL
Michael K. Vaska (argued), Rylan L.S. Weythman,
and Devra R. Cohen, Foster Pepper PLLC, Seattle,
* The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

2a
Washington; Jonathan Solish and David A. Harford,
Bryan Cave LLP, Irvine, California; for RespondentAppellant.
Tanya M. Schierling (argued), Norman L. Smith, and
Daniel E. Gardenswartz, Solomon Ward Seidenwurm
& Smith LLP, San Diego, California, for PetitionerAppellee.
Michael D. Madigan and Brandt F. Erwin, Madigan
Dahl & Harlan P.A., Minneapolis, Minnesota, for Amicus Curiae National Beer Wholesalers Association.
OPINION
M. SMITH, Circuit Judge:
City Beverages, LLC, doing business as Olympic
Eagle Distributing (Olympic Eagle), and Monster Energy Co. (Monster) signed an agreement providing exclusive distribution rights for Monster’s products to
Olympic Eagle for a fixed term in a specified territory.
After Monster exercised its contractual right to terminate the agreement, the parties proceeded to arbitration to determine whether Olympic Eagle was entitled
to protection under Washington law, and thus whether
Monster had improperly terminated the agreement
without good cause. From a list of several neutrals
provided by JAMS, the arbitration organization specified in the agreement, the parties chose the Honorable
John W. Kennedy, Jr. (Ret.) (the Arbitrator). At the outset of arbitration, the Arbitrator provided a series of
disclosure statements. In the final arbitration award
(the Award), the Arbitrator determined that Olympic

3a
Eagle did not qualify for protection under Washington
law.
The parties filed cross-petitions in the district
court, with Monster seeking to confirm the Award and
Olympic Eagle moving to vacate it. The district court
ultimately confirmed the Award.
We conclude, given the Arbitrator’s failure to disclose his ownership interest in JAMS, coupled with the
fact that JAMS has administered 97 arbitrations for
Monster over the past five years, that vacatur of the
Award is necessary on the ground of evident partiality.
We therefore reverse the district court and vacate the
Award. We also vacate the district court’s award of
post-arbitration fees to Monster for its petition to confirm the Award.
FACTUAL AND PROCEDURAL BACKGROUND
I.

Factual Background

In 2006, Olympic Eagle, an Anheuser-Busch (AB)
distributor, agreed to promote and sell Monster energy
drinks for twenty years in an exclusive territory. The
contract permitted Monster to terminate the agreement without cause upon payment of a severance fee.
Eight years later, Monster exercised its termination
right and offered to pay Olympic Eagle the contractual
severance of $2.5 million.
In response, Olympic Eagle invoked Washington’s
Franchise Investment Protection Act (FIPA), which
prohibits termination of a franchise contract absent
good cause. See Wash. Rev. Code § 19.100.180(2)(j).

4a
Monster served an arbitration demand on Olympic
Eagle and filed an action in the district court seeking
to compel arbitration. The district court ruled in favor
of Monster and compelled arbitration before JAMS
Orange County, as specified by Monster in its form
agreement with the AB distributors.
JAMS provided a list of seven neutrals to conduct
the arbitration, and the parties chose the Arbitrator.
The Arbitrator’s multi-page disclosure statement, provided to the parties at the commencement of arbitration, contained the following provision:
I practice in association with JAMS. Each
JAMS neutral, including me, has an economic
interest in the overall financial success of
JAMS. In addition, because of the nature and
size of JAMS, the parties should assume that
one or more of the other neutrals who practice
with JAMS has participated in an arbitration,
mediation or other dispute resolution proceeding with the parties, counsel or insurers
in this case and may do so in the future.
II.

Procedural Background

Following two weeks of hearings, the Arbitrator
issued an interim award, finding that Olympic Eagle
was not entitled to protection under FIPA. Two
months later, the Arbitrator awarded Monster attorneys’ fees (together with the interim award, the
Award).
Thereafter, Monster filed a petition in the district
court to confirm the Award, and Olympic Eagle cross-

5a
petitioned for its vacatur. Olympic Eagle sought to
vacate the Award based on later-discovered information that the Arbitrator was a co-owner of JAMS—
a fact that he did not disclose prior to arbitration.
Olympic Eagle also requested information from JAMS
regarding the Arbitrator’s financial interest in JAMS,
and Monster’s relationship with JAMS. When JAMS
refused to divulge this information, Olympic Eagle
served JAMS with a subpoena. In the face of further
resistance, Olympic Eagle later moved to compel
JAMS’s response to the subpoena.
Ultimately, the district court confirmed the Award,
denying Olympic Eagle’s cross-petition and finding
its motion to compel moot. The district court then
awarded Monster attorneys’ fees from both the arbitration and the post-arbitration proceedings. Judgment
was entered, and Olympic Eagle timely appealed.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction over this appeal pursuant to
9 U.S.C. § 16 and 28 U.S.C. § 1291, and we review de
novo the district court’s confirmation of an arbitration
award. New Regency Prods., Inc. v. Nippon Herald
Films, Inc., 501 F.3d 1101, 1105 (9th Cir. 2007).
ANALYSIS
The Federal Arbitration Act permits a court to vacate an arbitration award “where there was evident
partiality . . . in the arbitrators.” 9 U.S.C. § 10(a)(2).1
1

Our dissenting colleague makes much of the fact that persons who litigate their claims in arbitration have voluntarily

6a
Olympic Eagle seeks vacatur of the Award based on
the Arbitrator’s failure to fully disclose his ownership
interest in JAMS. Monster contends that the district
court correctly found Olympic Eagle’s argument
waived, and, alternatively, that the Arbitrator’s disclosures were sufficient. We first consider whether Olympic Eagle waived its evident partiality claim, and,
finding that it did not, then turn to the merits.
I.

Waiver

The district court held, and Monster continues to
argue, that Olympic Eagle waived its evident partiality
claim because it failed to timely object when it first
learned of potential “repeat player” bias and the Arbitrator disclosed his economic interest in JAMS.
In Fidelity Federal Bank, FSB v. Durga Ma Corp.
(Fidelity), we joined several of our sister circuits that
utilize a constructive knowledge standard when considering whether a party has waived an evident partiality claim. 386 F.3d 1306, 1313 (9th Cir. 2004).
There, we held that the disgruntled party was on notice
that the challenged arbitrator may have been nonneutral given the process the parties employed to pick
their arbitration panel: each party picked one arbitrator and the arbitrators picked the third. Id. Moreover,
given up the extensive protections afforded to parties by the conflict of interest statutes and rules governing federal judges. However, she fails to similarly credit the fact that federal law also
provides some comparable protections to parties in arbitration by
also permitting courts to vacate arbitration awards when there is
“evident partiality . . . in the arbitrators.” 9 U.S.C. § 10(a)(2); see
infra Section II.

7a
the party had failed to request disclosures from the
arbitrator or object to the lack of disclosures. Id. Given
these facts, we concluded that the party had waived its
partiality objection. Id.
Our post-Fidelity waiver cases involved less complicated factual scenarios than the case before us. See
Johnson v. Gruma Corp., 614 F.3d 1062, 1069 (9th Cir.
2010) (finding waiver where the party knew for at least
“a year or two” of the prior professional relationship
between the arbitrator and opposing counsel’s spouse
before the arbitrator ruled); Metalmark Nw., LLC v.
Stewart, No. 06-35321, 2008 WL 11442024, at *1 (9th
Cir. May 6, 2008) (finding no waiver because the arbitrator failed to disclose conflicts and neither party had
selected the arbitrator). Unlike these prior cases, the
situation here is more akin to a partial disclosure—the
Arbitrator disclosed his “economic interest” in JAMS
prior to arbitration, but Olympic Eagle did not know it
was an ownership interest. Although the district court
correctly noted that an ownership interest is “merely a
type of economic interest,” the key issue is whether
Olympic Eagle had constructive notice of the Arbitrator’s potential non-neutrality.
We find that Olympic Eagle lacked the requisite
constructive notice for waiver. To be sure, it knew that
the Arbitrator had some sort of “economic interest” in
JAMS. But the Arbitrator expressly likened his interest in JAMS to that of “each JAMS neutral,” who has
an interest in the “overall financial success of JAMS.”
The Arbitrator also disclosed his previous arbitration
activities that directly involved Monster, in which he

8a
ruled against the company. In context, these disclosures implied only that the Arbitrator, like any other
JAMS arbitrator or employee, had a general interest in
JAMS’s reputation and economic wellbeing, and that
his sole financial interest was in the arbitrations that
he himself conducted. Thus, even if the number of disputes that Monster sent to JAMS was publicly available, that information alone would not have revealed
that this specific Arbitrator was potentially non-neutral
based on the totality of JAMS’s Monster-related business.
The crucial fact—the Arbitrator’s ownership interest—was not unearthed through public sources, and it
is not evident that Olympic Eagle could have discovered this information prior to arbitration. In fact,
JAMS repeatedly stymied Olympic Eagle’s efforts to
obtain details about JAMS’s ownership structure and
the Arbitrator’s interest post-arbitration. Accordingly,
Olympic Eagle did not have constructive notice of the
Arbitrator’s ownership interest in JAMS—the key fact
that triggered the specter of partiality.
Furthermore, we have repeatedly emphasized an
arbitrator’s duty to investigate and disclose potential
conflicts. See, e.g., New Regency, 501 F.3d at 1110–11
(holding that the arbitrator’s new employment triggered duty to investigate possible conflicts). The Arbitrator undoubtedly knew of his ownership interest in
JAMS prior to arbitration yet failed to disclose it. To
find waiver in this circumstance would “ ‘put a premium on concealment’ in a context where the Supreme
Court has long required full disclosure.” Tenaska

9a
Energy, Inc. v. Ponderosa Pina Energy, LLC, 437 S.W.
3d 518, 528 (Tex. 2014) (quoting Middlesex Mut. Ins.
Co. v. Levine, 675 F.2d 1197, 1204 (11th Cir. 1982)).
Thus, we hold that Olympic Eagle did not have constructive notice of the Arbitrator’s potential nonneutrality, and therefore did not waive its evident partiality claim.
II.

Evident Partiality

The Supreme Court has held that vacatur of an
arbitration award is supported where the arbitrator
fails to “disclose to the parties any dealings that might
create an impression of possible bias.” Commonwealth
Coatings Corp. v. Cont’l Cas. Co., 393 U.S. 145, 149
(1968). In a concurrence, Justice White noted that
when an arbitrator has a “substantial interest in a firm
which has done more than trivial business with a
party, that fact must be disclosed,” id. at 151–52
(White, J., concurring)—a formulation of the rule that
we have adopted. See, e.g., New Regency, 501 F.3d at
1107. By contrast, we have observed that “long past,
attenuated, or insubstantial connections between a
party and an arbitrator” do not support vacatur based
on evident partiality. Id. at 1110; see also Lagstein v.
Certain Underwriters at Lloyd’s, London, 607 F.3d 634,
646 (9th Cir. 2010) (finding no evident partiality where
the arbitrator’s alleged ethical misconduct “occurred
more than a decade before th[e] arbitration and concerned neither of the parties to the case”).
In New Regency, we considered an arbitrator’s failure to disclose his new employment as an executive at

10a
a film group that was negotiating with one of the
party’s executives for the development of a movie. 501
F.3d at 1107, 1111. Prior to the arbitration, the arbitrator disclosed only that he had “negotiated deals”
with that same party’s leadership, but failed to update
his disclosures once the new employment began. Id. at
1106. Because the film deal was “real and nontrivial,”
we found a “reasonable impression of partiality [ ] sufficient to support vacatur.” Id. at 1110–11. Similarly,
in Schmitz v. Zilveti, we vacated an arbitration award
for evident partiality where the arbitrator’s law firm
had represented the parent company of one party in
“at least nineteen cases during a period of 35 years.”
20 F.3d 1043, 1044 (9th Cir. 1994). Thus, under our
case law, to support vacatur of an arbitration award,
the arbitrator’s undisclosed interest in an entity must
be substantial, and that entity’s business dealings
with a party to the arbitration must be nontrivial.
Here, the Arbitrator submitted a disclosure statement in accordance with JAMS’s rules. He disclosed
that within the past five years he had served as a neutral arbitrator for one of the parties, firms, or lawyers
in the present arbitration; that within the past two
years he or JAMS had been contacted by a party or
an attorney regarding prospective employment; and
that he “practice[s] in association with JAMS. Each
JAMS neutral, including me, has an economic interest
in the overall financial success of JAMS.” The Arbitrator also disclosed that he arbitrated a separate dispute
between Monster and a distributor, resulting in an
award against Monster of almost $400,000. He did not,

11a
however, disclose his ownership interest in JAMS
and JAMS’s substantial business relationship with
Monster.
Our inquiry is thus two-fold: we must determine
(1) whether the Arbitrator’s ownership interest in
JAMS was sufficiently substantial, and (2) whether
JAMS and Monster were engaged in nontrivial business dealings. If the answer to both questions is affirmative, then the relationship required disclosure,
and supports vacatur.
First, as a co-owner of JAMS, the Arbitrator has a
right to a portion of profits from all of its arbitrations,
not just those that he personally conducts. This ownership interest—which greatly exceeds the general
economic interest that all JAMS neutrals2 naturally
have in the organization—is therefore substantial.
Second, Monster’s form contracts contain an arbitration provision that designates JAMS Orange County
as its arbitrator. As a result, over the past five years,
JAMS has administered 97 arbitrations for Monster:
an average rate of more than one arbitration per
month. Such a rate of business dealing is hardly trivial, regardless of the exact profit-share that the Arbitrator obtained.3 In sum, these facts demonstrate that
2

Indeed, only about one-third of JAMS neutrals are ownershareholders.
3
Although the record does not reveal the Arbitrator’s specific monetary interest in Monster-related arbitrations, we do not
require such empirical evidence to conduct the triviality inquiry.
See New Regency, 501 F.3d at 1111 (finding that a “high-profile”
project was not unimportant, even though “the record [did] not

12a
the Arbitrator had a “substantial interest in [JAMS,]
which has done more than trivial business with [Monster]”—facts that create an impression of bias, should
have been disclosed, and therefore support vacatur. Commonwealth Coatings, 393 U.S. at 151-52 (White, J., concurring).
We acknowledge that previous cases did not address
an arbitrator’s interest in his own arbitration service.
Nonetheless, the Court did not distinguish between an
arbitrator’s organization and other entities, nor do we
see any reason to insulate arbitration services from the
principles that the Court articulated Commonwealth
Coatings.
Some states within our circuit have already legislated extensive requirements for neutral arbitrators to
ensure full disclosure. In California, for example, arbitrators are required to disclose “all matters that could
cause a person aware of the facts to reasonably entertain a doubt that the proposed neutral arbitrator
would be impartial,” including the “existence of any
ground specified in [Cal. Civ. Proc. Code § 170.1] for
disqualification of a judge.” Cal. Civ. Proc. Code
§ 1281.9(a). Similarly, Montana requires arbitrators to
disclose “all matters that could cause a person aware
of the facts underlying a potential conflict of interest
to have a reasonable doubt that the person would be
able to act as a neutral or impartial arbitrator,”
allow us to place a dollar value” on it); Schmitz, 20 F.3d at 1044,
1048 (finding generally that an arbitrator’s firm’s representation
on nineteen cases in 35 years resulted in impression of impartiality).

13a
including any ground for the disqualification of a
judge. Mont. Code Ann. §§ 27-5-116(3)–(4).
In addition, under the Revised Uniform Arbitration Act (the RUAA), which has been adopted by several states in our circuit, an arbitrator must disclose
“any known facts that a reasonable person would consider likely to affect the impartiality of the arbitrator,”
including a financial interest in the outcome of the proceeding. See, e.g., Or. Rev. Stat. Ann. § 36.650(1)(1).
The RUAA also establishes a presumption of evident
partiality when the arbitrator does not disclose a
“known, direct and material interest in the outcome of
the arbitration proceeding or a known, existing and
substantial relationship with a party . . . .” See, e.g.,
Ariz. Rev. Stat. Ann. § 12-3012(E).
In the states that have enacted the referenced
measures, arbitrators currently operate under disclosure rules akin to, or more burdensome than, the easily
satisfied obligations we set forth here. Fundamentally,
these disclosure requirements safeguard the parties’
right to be aware of the relevant information to assess
the arbitrator’s neutrality.
We note that although judges are bound by somewhat different rules than arbitrators, judges are
clearly not immune from recusal requirements when
our neutrality might be reasonably questioned. See,
e.g., Caperton v. A.T. Massey Coal Co., 556 U.S. 868, 881
(2009) (“The Court asks not whether the judge is actually, subjectively biased, but whether the average judge
in his position is ‘likely’ to be neutral, or whether there

14a
is an unconstitutional ‘potential for bias.’ ”); Tumey v.
Ohio, 273 U.S. 510, 523 (1927) (holding that the Due
Process Clause requires recusal when a judge has a
“direct, personal, substantial pecuniary interest” in a
case). Unlike the standards governing judges, however, our ruling in this case does not require automatic
disqualification or recusal—only disclosure prior to
conducting an arbitration concerning (1) the arbitrator’s ownership interest, if any, in the entity under
whose auspices the arbitration is conducted, and (2)
whether the entity under whose auspices the arbitration is conducted and one or more of the parties were
previously engaged in nontrivial business dealings.
Once armed with that information, and the answers to
any other inquiries the parties may wish to pose as a
result of knowing that information, the parties can
make their own informed decisions about whether a
particular arbitrator is likely to be neutral. It is simplicity itself, and no real burden, for an arbitrator to
disclose his or her ownership interest in an arbitration
company for which he or she works, as well as the organization’s prior dealings with the parties to the arbitration.
Although this litigation involved two sophisticated
companies, the proliferation of arbitration clauses in
everyday life—including in employment-related disputes, consumer transactions, housing issues, and
beyond—means that arbitration will often take place
between unequal parties. See Katherine Van Wezel
Stone, Rustic Justice: Community and Coercion Under
the Federal Arbitration Act, 77 N.C. L. Rev. 931, 934

15a
(1999); see also Aspic Eng’g & Constr. Co. v. ECC
Centcom Constructors, LLC, 913 F.3d 1162, 1169 (9th
Cir. 2019) (noting, “We have become an arbitration
nation.”). Clear disclosures by arbitrators aid parties
in making informed decisions among potential neutrals. These disclosures are particularly important
for one-off parties facing “repeat players.” See Lisa B.
Bingham, Employment Arbitration: The Repeat Player
Effect, 1 Emp. Rts. & Emp. Pol’y J. 189, 209–17 (1997)
(finding that employees disproportionately failed to
recover damages against repeat-player employers
compared to non-repeat-player employers).
Ultimately, we agree with Justice White:
The arbitration process functions best when
an amicable and trusting atmosphere is preserved and there is voluntary compliance with
the decree, without need for judicial enforcement. This end is best served by establishing
an atmosphere of frankness at the outset,
through disclosure by the arbitrator of any financial transactions which he has had or is
negotiating with either of the parties. . . . The
judiciary should minimize its role in arbitration as judge of the arbitrator’s impartiality.
That role is best consigned to the parties, who
are the architects of their own arbitration process, and are far better informed of the prevailing ethical standards and reputations
within their business.
Commonwealth Coatings, 393 U.S. at 151 (White, J.,
concurring).

16a
In accordance with the interest of finality, judicial
review of arbitration awards is often unexacting. However, the Supreme Court has nonetheless clearly endorsed the judicial enforcement of an arbitrators’ duty
to disclose. Placing the onus on arbitrators to disclose
their ownership interests in their arbitration organizations, and their organizations’ nontrivial business
dealings with the parties to the arbitration, is consistent with both the principles of Commonwealth
Coatings and our court’s precedents.
Although our dissenting colleague raises concerns
about the finality of recent arbitral judgments in light
of our ruling in this case, she correctly notes that the
applicable statute of limitations to vacate an arbitration award, which is only three months, will limit the
impact of our ruling on recently decided arbitrations.
9 U.S.C. § 12; Stevens v. Jiffy Lube Int’l, Inc., 911 F.3d
1249, 1251–52 (9th Cir. 2018). Prospectively, arbitration organizations like JAMS, which are already wellaccustomed to extensive conflicts checks and disclosures,
will have no difficulty fulfilling, and even exceeding, the
requirements described here.
CONCLUSION
As the Commonwealth Coatings Court stated,
“We can perceive no way in which the effectiveness of
the arbitration process will be hampered by the simple
requirement that arbitrators disclose to the parties
any dealings that might create an impression of possible bias.” 393 U.S. at 149. We thus hold that before an
arbitrator is officially engaged to perform an

17a
arbitration, to ensure that the parties’ acceptance of
the arbitrator is informed, arbitrators must disclose
their ownership interests, if any, in the arbitration organizations with whom they are affiliated in connection with the proposed arbitration, and those
organizations’ nontrivial business dealings with the
parties to the arbitration.
Here, the Arbitrator’s failure to disclose his ownership interest in JAMS—given its nontrivial business
relations with Monster—creates a reasonable impression of bias and supports vacatur of the arbitration
award. Because we vacate the arbitration award, we
also vacate the district court’s award of post-arbitration fees to Monster.4
REVERSED and VACATED.
FRIEDLAND, Circuit Judge, dissenting:
The majority vacates the arbitration award for
“evident partiality” because the Arbitrator failed to
disclose that he had an ownership interest in JAMS.
In the majority’s view, this undisclosed fact was necessary for the parties’ informed selection of this Arbitrator because it creates an impression that differs
4

We further deny Olympic Eagle’s request to take judicial
notice and grant Monster’s request to take judicial notice. We
deny the amicus motions filed by the Legal Academics and Eric
Kripke. We find moot the amicus motion filed by Warner Bros.
We grant the amicus motion filed by the National Beer Wholesalers Association, finding it relevant and useful. See Fed. R. App.
P. 29(a)(3)(B).

18a
meaningfully from that created by the facts the Arbitrator did disclose: (1) that he had a financial interest
in JAMS’s success generally, and (2) that Monster was
a repeat customer of JAMS. I disagree that, in an evaluation of whether the Arbitrator might favor Monster,
the additional information the majority believes
should have been disclosed would have made any material difference. I would therefore reject Olympic Eagle’s effort to vacate the arbitration award in Monster’s
favor.
I.
The Framers of our Constitution built protections
against judicial partiality into Article III. Federal
judges have life tenure and may not have their salaries
diminished while in office. U.S. Const. art. III, § 1. As
federal employees, federal judges receive their salaries
from the government, not from the parties who appear
before them. These structural protections are designed to help ensure that federal judges will decide
cases based on the law and the facts, not out of concern
about remaining popular enough to be selected to decide the next case or to receive the next paycheck. See
The Federalist No. 78, at 465 (Alexander Hamilton)
(Clinton Rossiter ed., 1961) (explaining that Article
III’s provision of life tenure is meant “to secure a
steady, upright, and impartial administration of the
laws”).
When parties like those here, who could have
their disputes resolved in federal court, instead have
entered into a contract that requires resolving any

19a
disputes in private arbitration (whether the arbitration term was desired by both parties or not), they have
given up those Article III protections. See Merit Ins.
Co. v. Leatherby Ins. Co., 714 F.2d 673, 679 (7th Cir.
1983) (explaining that parties to a commercial arbitration have “cho[sen] their method of dispute resolution,
and can ask no more impartiality than inheres in the
method they have chosen”). By nature of the fact that
arbitrators are hired and paid by the parties for whom
they conduct private arbitrations, arbitrators have an
economic stake in cultivating repeat customers for
their services. In addition, arbitrators affiliated with
an arbitration firm have an interest in not causing the
firm to lose its top clients. At least to some extent, this
means arbitrators have incentives to make decisions
that are viewed favorably by parties who frequently
engage in arbitrations.1 This feature of private arbitration, even if distressing, is an inevitable result of
the structure of the industry.
In this case, the Arbitrator disclosed that he had a
financial interest in JAMS’s success. He further disclosed that he had personally conducted one arbitration in which Monster was a party and had been
selected to decide another case involving Monster and
a different distributor. And he made clear that “the
parties should assume that one or more of the other
neutrals who practice with JAMS has participated in
[a] . . . dispute resolution proceeding with the parties
1

Individual arbitrators may be able to put these incentives
out of their minds and make impartial decisions, but the incentives exist nonetheless.

20a
. . . in this case and may do so in the future.” Olympic
Eagle also knew that Monster used a form contract
with its hundreds of distributors requiring that disputes be resolved through arbitration before JAMS—
and therefore had even more reason to know that Monster had likely hired other JAMS arbitrators or at least
had the potential to do so in the future.2 Indeed, the
parties had litigated about the form contract, and the
district court had held that Olympic Eagle had validly
agreed to its terms, a ruling Olympic Eagle has not
appealed. And before the arbitration began, Olympic
Eagle could easily have accessed an online record
showing that JAMS had conducted dozens of arbitrations between Monster and its consumers.3 See
2

It is unclear the extent to which a JAMS arbitrator would
have had a similarly strong incentive to please Olympic Eagle,
itself a large beverage distribution company. There appears to be
nothing in the record that indicates whether Olympic Eagle was
a repeat customer of JAMS or how frequently it engages in arbitrations. But it is possible that a JAMS arbitrator would have
had an incentive to please the lawyers representing Olympic Eagle, given that lawyers often help their clients choose arbitrators.
According to a court filing submitted by Monster, an international
law firm that helped represent Olympic Eagle in this dispute with
Monster had represented parties in at least twenty-three other
cases involving arbitration with JAMS.
3
As of August 27, 2015—when JAMS sent Monster and
Olympic Eagle a list of potential arbitrators—JAMS had disclosed
on its website at least eighty-one arbitrations involving Monster.
Consumer Case Information, JAMS, https://web.archive.org/web/
201505060/ http://www.jamsadr.com/files/Uploads/Documents/JAMSConsumer-Case-Information.xlsx (May 6, 2015) (accessed by
searching for “http://www.jamsadr.com/files/Uploads/Documents/
JAMS-Consumer-Case-Information.xlsx” in the Internet Archive
Wayback Machine).

21a
Consumer Case Information, JAMS, https://www.jamsadr.
com/consumercases/ (last visited Oct. 11, 2019); see
also Cal. Code Civ. Proc. § 1281.96 (requiring arbitration companies to disclose information about their consumer arbitrations).
This was more than enough information to allow
Olympic Eagle to consider whether the Arbitrator
might have had an incentive to try to please Monster
and thereby keep its repeat arbitration business. The
majority reasons, however, that the Arbitrator’s interest as a JAMS owner should have been specifically disclosed because it “greatly exceeds the general economic
interest that all JAMS neutrals naturally have in the
organization.” Maj. Op. at [11a]. I do not see how this
information would have made a material difference in
Olympic Eagle’s evaluation of the Arbitrator. Owners
of JAMS have an interest in maximizing JAMS’s
amount of business, because they share in JAMS’s
profits. Likewise, non-owner arbitrators have an interest in advancing their professional careers and maintaining their status with JAMS, which creates similar
incentives to decide cases in a way that is acceptable
to repeat player customers—otherwise, JAMS might
terminate the non-owner’s JAMS affiliation.
Notably, by the time the Arbitrator was being
selected, Olympic Eagle had committed to resolving
any dispute with Monster through arbitration at JAMS.
This necessarily meant that Olympic Eagle agreed the
arbitration would be conducted by a JAMS arbitrator,
whether that arbitrator was an owner of JAMS or a
non-owner of JAMS. Because both types of arbitrators

22a
would have at least some incentive to keep repeat customers of JAMS such as Monster happy, it is unclear
why knowing the details of the financial relationship
between any specific potential arbitrator and JAMS
would make a material difference to whether that arbitrator was accepted by Olympic Eagle.4 That an arbitrator has an ownership interest in the arbitration
firm, not just a financial interest in that firm more
generally, is hardly the sort of “real” and “not trivial”
undisclosed conflict that our court has held requires
vacatur. See New Regency Prods., Inc. v. Nippon Herald
Films, Inc., 501 F.3d 1101, 1110 (9th Cir. 2007) (quotation marks omitted).
The majority also leaves unclear how detailed an
arbitrator’s disclosures must be. Is it enough to reveal
the fact that the arbitrator is an owner, or must the
arbitrator disclose information such as how large the
4

The majority also highlights that the Arbitrator failed to
disclose more concrete information about Monster’s past use of
JAMS. Maj. Op. at [10a-11a]. To the extent the majority believes
this nondisclosure further supports vacating the arbitration
award, compare Maj. Op. at [10a-11a] (noting the Arbitrator did
not disclose “JAMS’s substantial business relationship with Monster”), with Maj. Op. at [17a] (emphasizing “the Arbitrator’s failure to disclose his ownership interest in JAMS,” and the existence
of JAMS’s “nontrivial business relations with Monster,” but not
mentioning the Arbitrator’s nondisclosure of those “business relations”), I disagree. Given that owners and non-owners have similar incentives to favor repeat players, the extent of a repeat
player’s relationship with the firm as a whole—which would not
vary from arbitrator to arbitrator—would be of little help in deciding whether to choose any particular arbitrator. And even if
the Arbitrator did not disclose precise details, he did disclose that
Monster was a repeat customer.

23a
ownership interest is? Is it necessary to disclose the
arbitration firm’s total profits from the prior year—or
maybe each year in the prior decade—so parties may
assess, for example, whether the business of the party
in question is significant overall? And how many prior
arbitrations must a corporation have engaged in with
an arbitration firm for there to be “nontrivial business
dealings,” Maj. Op. at [14a], that require disclosure?5
Does the fee paid for each of these prior arbitrations
need to exceed any threshold to trigger disclosure?
And, because lawyers often choose or help choose
arbitrators, giving arbitrators an incentive to please
lawyers who bring clients to arbitrations, must prior
arbitrations with the lawyers or law firms representing the parties also be disclosed?
As these lingering questions demonstrate, ruling
for Olympic Eagle is likely to generate endless litigation over arbitrations that were intended to finally
resolve disputes outside the court system. Nothing in
existing caselaw forces this error. Olympic Eagle has
not pointed us to a single reported federal decision
5

The majority indicates that generally, if an arbitrator has
an ownership interest in his firm, and his firm has significant
prior dealings with a party, both pieces of information must be
disclosed. It is unclear, however, whether the majority’s approach
requires an arbitrator to disclose significant prior dealings even
if he has no ownership interest, and vice-versa. Compare Maj.
Op. at [17a] (stating that “arbitrators must disclose their ownership interests, if any” and their firm’s “nontrivial business dealings with the parties to the arbitration” (emphasis added)), with
Maj. Op. at [9a-12a] (suggesting that disclosure is only required
if there is both an ownership interest and substantial business
dealings).

24a
holding that an undisclosed potential source of bias
stemming from the structure of the private arbitration
industry itself warrants vacating an arbitration award.
The majority acknowledges as much by conceding that
there are no prior cases directly on point. Rather, the
precedent binding us that vacated arbitration awards
because of a failure to disclose information involved an
arbitrator who had a relationship with one of the arbitrating parties that was totally unrelated to prior arbitrations. See Commonwealth Coatings Corp. v. Cont’l
Cas. Co., 393 U.S. 145, 146, 149–50 (1968) (arbitrator
failed to disclose that he had occasionally served as
an engineering consultant for one of the parties over
several years); New Regency Prods., 501 F.3d at
1107–11 (arbitrator failed to disclose his employment
with a company negotiating a film deal with one of
the parties to the arbitration); Schmitz v. Zilveti, 20
F.3d 1043, 1044, 1048–50 (9th Cir. 1994) (arbitrator
failed to disclose that his law firm represented in at
least nineteen matters a parent company of one of the
parties to the arbitration). There is no reason the parties would know about the potential partiality arising
from such a relationship unless the arbitrator disclosed the relationship. By contrast, the potential partiality that stems from the very structure of private
arbitration is obvious to anyone who understands arbitrators’ general economic interest in repeat business
for themselves or their firm.
In the short run, adopting Olympic Eagle’s position will require vacating awards in numerous cases
decided by JAMS owners (who make up about a third

25a
of JAMS arbitrators) who did not disclose their ownership interest.6 If there are other firms where arbitrators similarly hold ownership interests, the majority’s
approach will likewise require vacatur in those arbitrators’ cases with repeat players unless there was a
disclosure of the ownership interest.
In the long run, adopting Olympic Eagle’s position
could spur years of quibbling over the extent of disclosures required by arbitrators. And this slippery slope
may have no bottom. If the losing party to an arbitration is less of a repeat player than its opponent, it will
likely be able to think up after the fact some argument
that an arbitrator’s disclosure did not fully convey the
arbitrator’s financial interest in the potential future
arbitration business of the winning party or its lawyers. The result will be to prolong disputes that both
parties have already spent tremendous amounts of
time and money to resolve. Olympic Eagle, for example, only objected to the Arbitrator’s lack of disclosure
after it lost the arbitration. By that point, more than
a year had passed since the district court compelled arbitration, and the agreed-upon Arbitrator had conducted a hearing lasting nine days. The arbitration fee
alone was $160,000, and Monster was awarded $3 million in attorney’s fees and costs.7 To avoid the
6

Of course, the statute of limitations for filing a motion to
vacate an arbitration award may place a limit on how much litigation there will be. See 9 U.S.C. § 12; Stevens v. Jiffy Lube Int’l,
Inc., 911 F.3d 1249, 1251–52 (9th Cir. 2018) (discussing statute
of limitations for petitions to vacate arbitration awards).
7
Ruling for Olympic Eagle could also lay the groundwork for
further disputes over whether arbitrators with ownership

26a
uncertainty created by the majority’s opinion, which
would inevitably exist even after further disclosures
are attempted, parties may shift to using arbitrators
who are unaffiliated with any arbitration firm. These
arbitrators may be less likely to have expertise—but
be at least equally likely to want to retain the business
of potential repeat customers. Cf. ANR Coal Co., Inc. v.
Cogentrix of N.C., Inc., 173 F.3d 493, 498–99 (4th Cir.
1999) (“[S]ubjecting arbitrators to extremely rigorous
disclosure obligations would diminish one of the key
benefits of arbitration: an arbitrator’s familiarity with
the parties’ business.” (citing Commonwealth Coatings, 393 U.S. at 150 (White, J., concurring))).
Although I would affirm the Arbitrator’s award in
favor of Monster, I note that lack of disclosure about a
party’s prior arbitrations might require vacatur in
some instances. For example, if one of the parties had
used the exact same arbitrator to resolve numerous
disputes, and the arbitrator always ruled in its favor,
vacatur might be appropriate based on the arbitrator’s
failure to disclose that arbitration history. But the
interests have a conflict that disqualifies them under state law
from arbitrating cases involving a repeat player. See Cal. Code
Civ. Proc. § 1281.91(d) (allowing for disqualification under certain
circumstances, including those described in Cal. Code Civ. Proc.
§ 170.1(a)(6)(A)(iii)—when “[a] person aware of the facts might
reasonably entertain a doubt that the [decision-maker] would be
able to be impartial”); see also Alaska Stat. § 09.43.380(b) (“An
individual who has a known, direct, and material interest in the
outcome of the arbitration proceeding . . . may not serve as an arbitrator required by an agreement to be neutral.”); Ariz. Rev. Stat.
Ann. § 12-3011(B) (same); Haw. Rev. Stat. § 658A-11(b) (same);
Nev. Rev. Stat. § 38.226(2) (same).

27a
facts of this case are nowhere near so extreme. The
Arbitrator had previously decided one dispute between
Monster and a distributor, and that proceeding resulted in an award of almost $400,000 against Monster. The Arbitrator had also been selected to decide a
dispute between Monster and another distributor,
which was still pending at the time of the arbitration
involving Monster and Olympic Eagle. The disclosure
the Arbitrator made to the parties provided accurate
information about both arbitrations.
II.
To the extent that the private arbitration system
favors repeat players, I think it is unfortunate that so
many parties forgo the protections of Article III and
turn to arbitration instead. It is especially unfortunate
when arbitrations involve a non-repeat player party
that had no choice but to agree to arbitration in order
to acquire employment, purchase a product, or obtain
a necessary service. The majority laudably seeks to
mitigate disparities between repeat players and oneshot players in the arbitration system. But I disagree
that requiring disclosures about the elephant that everyone knows is in the room will address those disparities. It will only cause many arbitrations to be re-done,
and endless litigation over how many repeated arbitrations there will be.
I therefore respectfully dissent.

28a
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case
No. 5:17-cv-00295-RGK-KK

Date May 09, 2017

Monster Energy Company v. City Beverages
Title d/b/a Olympic Eagle Distributing
================================================================

Present: The R. GARY KLAUSNER, UNITED
Honorable
STATES DISTRICT JUDGE
Sharon L. Williams
Deputy Clerk

Not Reported
Court Reporter/
Recorder

N/A
Tape No.
Attorneys Present
for Plaintiffs:

Attorneys Present
for Defendants:

Not Present

Not Present

Proceedings: (IN CHAMBERS) Order Re: Petition
to Confirm Arbitration Award (DEs 9,
11) & Cross-Petition to Vacate Arbitration Award (DE 23)
I.

INTRODUCTION

On April 27, 2015, Monster Energy Company
(“Monster”) filed a Complaint in a separate action

29a
before this Court1 for Declaratory Relief against City
Beverages, LLC d/b/a Olympic Eagle Distributing
(“Olympic”) regarding a contractual dispute. Monster
sought a judicial determination that the arbitration
provision in their contract was valid and enforceable.
On September 29, 2015, the Court agreed with Monster and granted Monster’s Motion to Compel Arbitration.
Monster prevailed following a lengthy arbitration
of the underlying contract dispute, and the Arbitrator
awarded Monster roughly $ 3,000,000 in attorney’s
fees and costs (“Arbitration Award”).
On March 3, 2017, Monster filed the petition in the
present action asking the Court to: (1) confirm the
Arbitration Award, (2) enter judgment against Olympic, and (3) grant post-arbitration attorney’s fees. On
March 17, 2017, Respondent filed a Cross-Petition to
vacate the Arbitration Award.
For the following reasons, the Court GRANTS in
part Monster’s Petition and DENIES Olympic’s
Cross-Petition.
II.

FACTUAL BACKGROUND

Olympic is a beverage distribution company located in the state of Washington, and is the exclusive
distributor of Anheuser-Busch (“AB”) beer within its
territory. Monster is an energy drink company that
reached an agreement with AB in 2006 regarding the
1

Monster Energy Co., v. Olympic Eagle Distrib., No. 15-cv00819-RGK-KK

30a
distribution of Monster’s products. Under the terms of
the Monster-AB agreement, all of AB’s existing distributors could elect to also distribute Monster products.
Pursuant to this setup, Olympic became a Monster distributor, and began distributing Monster branded beverages in Washington under the terms of two separate
Monster-Olympic distribution agreements (one for
on-premises distribution, and one for off-premises distribution).
These agreements provided that the MonsterOlympic distribution relationship would last for 20
years, but Monster had the right to terminate the
agreements without cause if Monster: (1) repurchased
Olympic’s unsold Monster inventory, advertising material, and equipment; and (2) paid Olympic an amount
equal to Olympic’s twelve-month trailing gross profit
earned from its sale of Monster products.
In 2014, Monster decided to seek a broader master
distribution agreement with Coca-Cola that would
require Monster to terminate its existing distribution
agreements, including the ones with Olympic. As such,
Monster sent Olympic written notice terminating their
agreements, repurchased the excess inventory, advertising material, and equipment, and sent Olympic a
check for $2,523,923.68, representing Olympic’s
twelve-month trailing gross profits from Monster
sales.
On March 3, 2015, Olympic notified Monster that
it was challenging the termination based on Washington franchise law, which Olympic contended prohibits

31a
Monster from terminating their agreement without
cause.
At this point, Monster sought declaratory relief
before this Court, asking the Court to enforce the identical arbitration provisions in the Monster-Olympic
distribution agreements. The Court found that the
parties’ dispute over Monster’s right to terminate the
agreement fell within the terms of their arbitration
agreement, and ordered the parties to arbitration.2 Per
the Monster-Olympic arbitration agreement, the arbitration was conducted using JAMS, a large alternative
dispute resolution services firm.
On November 14, 2016, following extensive briefing and a two-week arbitration proceeding, the JAMS
arbitrator found that Olympic was not a “franchisee,”
and Monster was not a “franchisor,” for purposes of the
Washington Franchise Investment Protection Act
(“FIPA”), Wash. Rev. Code § 19.100 et seq. (Arbitrator’s
Award, p.7, ECF No. 9-5.) The arbitrator determined
that because FIPA did not apply, the early termination
provisions in the Monster-Olympic distribution agreements were valid and enforceable. (Id.)
The arbitrator also found that the arbitration provisions in the distribution agreements allowed the
arbitrator to award reasonable attorneys’ fees and
costs to the prevailing party. (Id. at 11.) On January
24, 2017, after reviewing the declarations and briefs
submitted by the parties on the issue, the arbitration
2

Monster Energy Co., No. 15-cv-00819-RGK-KKx, 2015 WL
12781213, at *6-7 (C.D. Cal. Sept. 29, 2015).

32a
awarded Monster $3,000,000 in attorney’s fees and
costs.
The Parties now dispute whether the Arbitration
Award should be vacated or confirmed, and whether
the prevailing party on this question is entitled to
recover its attorney’s fees and costs incurred in this
post-arbitration proceeding.
III. JUDICIAL STANDARD
Under the Federal Arbitration Act (“FAA”), a federal court has only very limited authority to review
arbitration decisions “because broad judicial review
would diminish the benefits of arbitration.” Lifescan,
Inc. v. Premier Diabetic Servs., 363 F.3d 1010, 1012 (9th
Cir. 2004). A district court may vacate an arbitration
award “only in very unusual circumstances.” First
Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 942 (1995).
Under § 10 of the FAA, an arbitration award may only
be vacated if: (1) “ the award was procured by corruption, fraud, or undue means” (2) “there was evident
partiality’’ on behalf of the arbitrators; (3) “the arbitrators were guilty of misconduct”; or (4) “the arbitrators
exceeded their powers.” 9 U.S.C. § 10(a); Hall St.
Assocs., LLC v. Mattel, Inc., 552 U.S. 576, 584 (2008).
An arbitrator is deemed to have exceeded his powers if
he acts in “manifest disregard of the law.” Comedy
Club, Inc. v. Improv W. Assocs., 553 F.3d 1277, 1290 (9th
Cir. 2016). In the Ninth Circuit, an arbitrator has
manifestly disregarded the law when it is clear that he
recognized, but ignored, some “well defined, explicit,

33a
and clearly applicable” law. Wawock v. CSI Elec.
Contractors, Inc., 649 F. App’x. 556, 557 (9th Cir. 2016).
IV. DISCUSSION
Monster petitions the Court to confirm the Arbitration Award, enter judgment against Olympic, and
grant attorney’s fees and costs for this post-arbitration
litigation. Olympic argues that the Court should
instead vacate the Arbitration Award because of the
arbitrator’s evident partiality and manifest disregard
for the law. Olympic also contends that, in any case,
Monster is not entitled to post-arbitration fees and
costs.
The Court will first determine whether the Arbitration Award will be confirmed or vacated by analyzing whether, as Olympic claims, (a) the arbitral
proceedings were maned by evident partiality, or the
arbitrator acted in manifest disregard of the law. The
Court will then address whether the prevailing party
is entitled to recover attorney’s fees and costs incurred
in this post-arbitration action.
A. Vacatur of the Arbitration Award for
Evident Partiality
The parties selected the Honorable John W. Kennedy, Jr. (“Arbitrator”) as the JAMS neutral who would
preside over their arbitration proceedings. On October
6, 2015, the Arbitrator submitted a list of disclosures
to both parties. In the “Declarations of Arbitrator” section, the Arbitration stated:

34a
I practice in association with JAMS. Each
JAMS neutral, including me, has an economic
interest in the overall financial success of
JAMS. In addition, because of the nature and
size of JAMS, the parties should assume that
one or more of the other who practice with
JAMS has participated in an arbitration,
mediation or other dispute resolution proceeding with the parties, counsel or insurers
in this case and may do so in the future.
(Vaska Decl. Ex. G, at 6, ECF No. 26-10.)
Olympic contends, however, that the Arbitrator
has much more than a mere “economic interest” in the
financial success of JAMS, as he is actually a part
owner of JAMS. Olympic argues that the Arbitrator’s
failure to disclose his ownership interest in JAMS, in
light of Monster’s status as a “repeat player” in JAMS
arbitration proceedings, creates an impression of evident partiality.
To show that an arbitrator demonstrated evident
partiality, the party seeking to vacate an arbitration
award need not show that the arbitrator “was actually
guilty of fraud or bias in deciding the case.” Commonwealth Coatings Corp. v. Cont’l Cas. Co., 393 U.S. 145,
147 (1968)). Instead, the party need only establish
that the arbitrator failed to disclose any dealings to the
par-ties “that might create an impression of possible
bias.” New Regency Prods. v. Nippon Herald Films, 501
F.3d 1101, 1105 (9th Cir. 2007) (quotations and citations omitted).

35a
As a threshold matter, the Court determines that
Olympic has waived its evident partiality claim
because Olympic failed to timely object when it first
learned of the potential “repeat player” bias due to the
Arbitrator’s economic interest in JAMS. See Fid. Fed.
Bank, FSB v. Durga Ma Corp., 386 F.3d 1306, 1313 (9th
Cir. 2004) (“Holding that the waiver doctrine applies
where a party to an arbitration has constructive
knowledge of a potential conflict but fails to timely
object is the better approach in light of our policy
favoring the finality of arbitration awards.”). As a
sophisticated commercial entity, Olympic certainly
should have been aware of the potential for a “repeat
player” bias after the Arbitrator disclosed his “economic interest” in JAMS at the outset of the arbitration.
The proper time for Olympic to further
investigate or object to the Arbitrator’s potential conflict of interest, therefore, was before the arbitration
award was issued.
Even assuming that Olympic had not waived its
argument, however, the Court sees nothing that would
strongly suggest evident partiality on the part of the
Arbitrator. The Arbitrator disclosed from the beginning that he had an economic interest in JAMS, and
Olympic nonetheless consented to his serving as the
arbitrator without any further investigation. An ownership interest in JAMS is merely a type of economic
interest. In this case, the Court sees no reason to
require that the Arbitrator have disclosed his particular economic interest at a granular level unless the
parties inquired further after he made his initial

36a
economic interest disclosure. Moreover, Olympic offers
no particularized evidence of the Arbitrator’s partiality
or bias resulting from his economic interest in JAMS.
See Nagrampa v. MailCoups, Inc., 469 F.3d 1257, 1285
(9th Cir. 2006) (“[M]erely raising the ‘repeat player
effect’ claim, without presenting more particularized
evidence demonstrating impartiality, is insufficient
under California law to support an unconscionability
finding.”). Therefore, the Court DENIES Olympic’s
Motion to Vacate the Arbitration Award on this
ground.
B. Vacatur of the Arbitration Award for
Manifestly Disregarding the Law
Olympic next contends that the Arbitrator demonstrated a manifest disregard for the law in two
instances. First, Olympic argues that the Arbitrator
applied the wrong test to determine whether FIPA
applies to the parties’ dispute. Second, Olympic argues
that the Arbitrator ignored the one-way fee provision
of Washington’s Consumer Protection Act in awarding
Monster attorney’s fees and costs.
As discussed above, “[a]lthough the words ‘manifest disregard for law’ do not appear in the FAA, they
have come to serve as a judicial gloss on the standard
for vacatur set forth in FAA § 10(a)(4).” Johnson v.
Wells Fargo Home Mortg., Inc., 635 F.3d 401, 414 (9th
Cir. 2011). To rise to the level of manifest disregard for
the law, the record must clearly show that the arbitrator recognized the applicable law and then ignored it.
Comedy Club, 553 F.3d at 1290. Moreover, the law that

37a
the arbitrator allegedly ignored “must be well defined,
explicit, and clearly applicable.” Collins v. D.R. Horton,
Inc., 505 F.3d 874, 879 (9th Cir. 2007) (emphasis omitted). “[A]rbitrators ‘exceed their powers’ . . . not when
they merely interpret or apply the governing law
incorrectly, but when the award is ‘completely irrational’ ” Kyocera Corp. v. Prudential-Bache Trade
Servs., Inc., 341 F.3d 987, 997 (9th Cir. 2003) (en banc)
(citations omitted).
1. Substantial Association
In the first alleged instance of manifest disregard
of the law, the Arbitrator found that Olympic was not
entitled to protection under FIPA because one the
requirements for FIPA to apply—that the distributor
of a company’s products be “substantially associated”
with the company’s trade name or trademarks—was
not satisfied.
Olympic argues that the Arbitrator improperly
applied a percentage test to determine whether a distributor is substantially associated with a company,
basing the determination on the percentage of the distributor’s business that comes from selling that company’s products. Olympic argues that the percentage
test—adopted by courts in Connecticut—is improper
under Washington law, and that the Arbitrator should
have instead looked to how courts in California have
dealt with the idea of “substantial association.”
Washington law does not define “substantial association,” and very few cases have analyzed this element under FIPA. Olympic argues that “the only

38a
Washington court to directly address the interpretation of ‘substantial association’ under [FIPA],” Atchley
v. Pepperidge Farm, Inc., declared that courts should
look to California law on the issue. 2012 U.S. Dist.
LEXIS 173974 (E.D. Wash. December 6, 2012). (Olympic’s Pet. To Vacate 17, ECF No. 22-1.) But the “Washington court” in Atchley was actually a federal district
court speculating about how Washington state courts
might deal with the issue, and thus Atchley’s interpretation of FIPA does not have any binding precedential
effect. Moreover, in reaching its decision, the Atchley
court does not explicitly state that courts must only
look to California law when interpreting FIPA. Indeed,
Atchley references both Connecticut and Indiana franchise laws when interpreting other FIPA provisions.
Finally, even if Atchley stands for the proposition
that courts should look to California law to interpret
the “substantial association” prong of FIPA, the Arbitrator never stated that his finding of a lack of substantial association was entirely premised on Connecticut
law. Rather, he noted that Connecticut’s percentage
test was one of nine non-exhaustive factors that “primarily lead [the Arbitrator] to this finding.” (Arbitrator’s Interim Award, p. 7, ECF No. 9-5.)
After reviewing the Arbitrator’s decision, the
arguments of both parties, as well as the relevant case
law, the Court is not convinced that there is a ‘‘well
defined, explicit, and clearly applicable” rule regarding
the interpretation of FTPA’s “substantial association”
prong in Washington. As such, the Arbitrator’s

39a
interpretation cannot rise to the level of manifest disregard for the law.
Therefore, the Court DENIES Olympic’s Motion
to Vacate the Arbitration Award on this ground.
2. Attorney’s Fees Provision
In the second alleged instance of manifest disregard of the law, the Arbitrator found that the one-way
fee provision under Washington’s Consumer Protection Act (“CPA”), Wash. Rev. Code § 19.86.09, did not
apply and awarded Monster attorney’s fees and costs
under the terms of the Monster-Olympic distribution
agreement, which explicitly allowed for such an award.
The attorney’s fees provision of the CPA is “oneway,” in that only a claimant seeking protection under
FIPA may recover attorney’s fees. Wash. Rev. Code
§ 19.86.09. If the CPA applied, Monster would have
been precluded from getting attorney’s fees at arbitration. The arbitration provision of the Monster-Olympic
distribution agreements, by contrast, contains a “twoway” attorney’s fees provision, which states that “[i]n
addition to all other relief, the arbitrator shall have the
power to award reasonable attorney’s fees and costs to
the prevailing party.” (Gardenswartz Decl., ¶ 9, Ex. 5
§ 26, ECF No. 32-6.)
Olympic argues that because the CPA is the exclusive means of enforcing FIPA, and its claims at arbitration arose out of FIPA, the CPA’s one-way attorney’s
fees provision should have applied. The Arbitrator
determined, however that since Olympic failed to show

40a
that it was a “franchisee” under FIPA, it had no FIPA
or CPA claims, and thus the CPA’s one-way fee provision was inapplicable. The Arbitrator then looked to
the terms of the parties’ own arbitration agreement for
guidance on whether Monster was entitled to attorney’s fees.
The Arbitrator’s decision that the Monster-Olympic
arbitration agreement’s fee provision applied instead
of the CPA’s fee provision was not “completely irrational.” See Advanced Micro Devices, Inc. v. Intel Corp.,
9 Cal. 4th 362, 367 (1994) (‘‘[I]n the absence of more
specific restrictions in the arbitration agreement . . .
the remedy an arbitrator fashions does not exceed his
or her powers if it basis a rational relationship to the
underlying contract as interpreted, expressly or
impliedly, by the arbitrator.”). Nor was it in direct contravention of well-defined, explicit, and clearly applicable law. Therefore, the Court finds that the
Arbitrator did not manifestly disregard the law, and
DENIES Olympic’s Motion to Vacate the Arbitration
Award on this ground.

41a
C. Post-Arbitration Attorney’s Fees
“[T]here is nothing in the Federal Arbitration Act
which provides attorneys’ fees to a party who is successful in seeking confirmation of an arbitration award
in the federal courts.” Menke v. Monchecourt, 17 F.3d
1007, 1009 (7th Cir.1994). However, federal courts may
nonetheless award attorneys’ fees if there is a contractual provision that provides for the award. See, e.g.,
SCIE LLC v. XL Reinsurance Am., Inc., 397 F. App’x
348, 351 (9th Cir. 2010). Here, the arbitration provision in the Monster-Olympic distribution agreement
provides that the arbitrator can award reasonable attorney’s fees, but is silent as to whether a court tasked
with enforcing an arbitration award can award postarbitration fees.
Under California law courts have held that a contract provision giving an arbitrator authority to grant
attorney’s fees to the prevailing party also allows for
provision of attorney’s fees in post-arbitration proceedings, such as this one. Ajida Techs., Inc. v. Roos Instruments, Inc., 87 Cal. App. 4th 534, 552 (2001) (holding
that an arbitration attorney’s fees clause “is broad
enough to cover fees on this appeal.”). As the Court has
jurisdiction over the present action through diversity,
the Court must apply California law to this question.
See Erie R. Co. v. Tompkins, 304 U.S. 64, 58 S.Ct. 817
(1938); SCIE LLC v. XL Reinsurance Am., Inc., 397 F.
App’x at 351 (9th Cir. 2010) (“The district court did not
err in awarding plaintiffs the attorney’s fees and
expenses incurred in . . . confirming the arbitration
award.”) (citing Ajida, 87 Cal. App. 4th at 552).

42a
Therefore, the Court holds that, at the Court’s discretion, Monster may be entitled to attorney’s fees
incurred to confirm the arbitration award in these proceedings. The Court will not, however, grant Monster’s
request for $130,000 in attorney’s fees without proper
briefing and supporting documentation. If Monster
wishes to seek attorney’s fees relating to its confirmation of the arbitration award in this action, Monster
must file a properly noticed motion for attorney’s fees
and costs.
V.

CONCLUSION

For the foregoing reasons, the Court hereby
GRANTS Monster’s First Amended Petition to Confirm the Final Arbitration Award (DEs 9, 11). If Monster wishes for the Court to enter a separate
judgement in addition to this Order, it should submit a
proposed judgment consistent with this Order within
7 days of the date of this Order.
The Court consequently DENIES Olympic’s
Cross-Petition to Vacate the Arbitration Award (DE
23).
The Court DENIES without prejudice Monster’s request for post-arbitration attorney’s fees, and
orders that any further motions regarding attorney’s
fees must be filed within 7 days of the date of this
Order.
The Court DENIES the following ex parte applications and motions as MOOT:

43a
(1) Olympic’s Ex Parte Application to Continue Hearing on Cross-Motions to Confirm and Vacate Arbitration Award (DE
36)
(2) Olympic’s Motion to Compel Production
of Documents (DE 38)
(3) Olympic’s Motion to Strike (DE 44)
IT IS SO ORDERED.
_________

________

Initials of Preparer ___________________

44a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MONSTER ENERGY
COMPANY, FKA Hansen
Beverage Company,
Petitioner-Appellee,
v.
CITY BEVERAGES, LLC,
DBA Olympic Eagle
Distributing,

Nos. 17-55813, 17-56082
D.C. No.
5:17-cv-00295-RGK-KK
Central District of
California, Riverside
ORDER
(Filed Dec. 30, 2019)

Respondent-Appellant.
Before: M. SMITH and FRIEDLAND, Circuit Judges,
and SIMON,* District Judge.
Judges M. Smith and Simon voted to deny the
petition for panel rehearing, and Judge Friedland
voted to grant it. Dkt. 105. Judge M. Smith voted to
deny the petition for rehearing en banc and Judge
Simon so recommends. Dkt. 105. Judge Friedland
voted to grant the petition for rehearing en banc.
The full court has been advised of the petition
for rehearing en banc, and no judge of the court has
requested a vote on it. Fed. R. App. P. 35. The petitions

* The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

45a
for panel rehearing and rehearing en banc are DENIED.

